      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




January 21, 2010

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Joseph E. Vengrin/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of OneLegacy’s Reported Fiscal Year 2006 Organ Acquisition Overhead
              Costs and Administrative and General Costs (A-09-08-00033)


Attached is an advance copy of our final report on OneLegacy’s reported fiscal year (FY) 2006
organ acquisition overhead costs and administrative and general costs. We will issue this report
to OneLegacy within 5 business days.

Organ procurement organizations (OPO) are not-for-profit organizations that are responsible for
procuring and preserving transplantable organs and transporting them to transplant centers. The
Centers for Medicare & Medicaid Services requires independent OPOs to submit Medicare cost
reports annually to determine the amounts payable under Medicare associated with the
procurement of kidneys. The cost report includes direct costs, overhead costs, and administrative
and general costs associated with organ procurement.

The costs claimed in the cost report must be related to the care of beneficiaries; reasonable,
necessary, and proper; and allowable under Medicare regulations (42 CFR § 413.9(a), (b), and
(c)(3)). In addition, the OPO’s cost information must be accurate and in sufficient detail to
support payments made for services provided (42 CFR § 413.24(a) and (c)). The Medicare
“Provider Reimbursement Manual” (Manual) states that independent OPOs are reimbursed on
the basis of reasonable cost and requires them to use the policies contained in the Manual.

In its FY 2006 Medicare cost report, OneLegacy reported $15,064,120 of OPO overhead costs
and $9,648,274 of administrative and general costs, from which we judgmentally selected a total
of $3,157,740 to review.

Our objective was to determine whether OneLegacy complied with Medicare requirements for
reporting selected OPO overhead costs and administrative and general costs in its FY 2006
Medicare cost report.
Page 2 – Charlene Frizzera


OneLegacy did not fully comply with Medicare requirements for reporting selected OPO
overhead costs and administrative and general costs in its FY 2006 Medicare cost report. Of the
$3,157,740 of costs we reviewed, $2,626,280 was allowable. The remaining $531,460
represents $290,968 of unallowable costs and $240,492 of unsupported costs:

      Contrary to Federal regulations, OneLegacy reported $290,968 of costs that were not
       related to patient care or did not comply with other Medicare requirements and therefore
       were not allowable. This amount included costs incurred for the Rose Parade, deferred
       compensation, donations and gifts, lobbying, meals, and entertainment. We estimated
       that Medicare’s share of the unallowable costs related to kidney procurement was
       $162,331.

      Contrary to Federal requirements, OneLegacy reported $240,492 of costs that were
       unsupported. For $26,635 of this amount, no documentation existed to support the
       reported costs. For the remaining $213,857, OneLegacy was unable to provide adequate
       documentation to support the allowability of the reported costs. Based on Federal
       regulations and the Manual, we considered the unsupported costs to be unallowable for
       Medicare reimbursement. We estimated that Medicare’s share of the unsupported costs
       related to kidney procurement was $134,171.

OneLegacy did not have procedures to ensure that all OPO overhead costs and administrative
and general costs reported in its Medicare cost report were allowable, supportable, and in
compliance with Medicare requirements. As a result, OneLegacy overstated its Medicare
reimbursement in the FY 2006 Medicare cost report by an estimated $296,502.

We recommend that OneLegacy (1) submit a revised FY 2006 Medicare cost report to the fiscal
intermediary to correct the estimated Medicare overstatement of $296,502 and (2) develop and
implement procedures to ensure that costs reported in future Medicare cost reports are allowable,
supportable, and in compliance with Medicare requirements.

In its comments on our draft report, OneLegacy agreed with the findings related to deferred
compensation, lobbying costs, and entertainment costs. However, OneLegacy disagreed with the
findings related to Rose Parade costs, donations and gifts, meal costs, and unsupported costs.
OneLegacy stated that it was unable to implement the first recommendation because the fiscal
intermediary has never allowed OPOs to reopen closed reports. OneLegacy agreed with the
second recommendation.

After reviewing OneLegacy’s comments and the additional documentation that OneLegacy
provided, we revised the report to remove the finding related to unsupported legal fees and
modified our first recommendation accordingly. Nothing in OneLegacy’s comments and
additional documentation caused us to revise our other findings. The fiscal intermediary
informed us that it could reopen the cost report at the provider’s request.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
Page 3 – Charlene Frizzera


or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-08-00033.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103
January 28, 2010

Report Number: A-09-08-00033

Mr. Thomas Mone
Chief Executive Officer
 and Executive Vice President
OneLegacy
221 South Figueroa Street, Suite 500
Los Angeles, California 90012

Dear Mr. Mone:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of OneLegacy’s Reported Fiscal Year 2006 Organ
Acquisition Overhead Costs and Administrative and General Costs.” We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact Jerry McGee, Audit Manager, at (323) 261-7218, extension 603, or
through email at Jerry.McGee@oig.hhs.gov. Please refer to report number A-09-08-00033 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Thomas Mone


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF ONELEGACY’S
 REPORTED FISCAL YEAR 2006
ORGAN ACQUISITION OVERHEAD
 COSTS AND ADMINISTRATIVE
    AND GENERAL COSTS




                       Daniel R. Levinson
                        Inspector General

                         January 2010
                         A-09-08-00033
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 or older, people under the age of 65 with certain disabilities,
and people of all ages with end-stage renal disease, which is permanent kidney failure requiring
dialysis or a kidney transplant. Section 1881 of the Act authorizes Medicare reimbursement for
dialysis, transplantation, and procurement of kidneys. The Centers for Medicare & Medicaid
Services (CMS) administers the Medicare program.

Organ procurement organizations (OPO) are not-for-profit organizations that are responsible for
procuring and preserving transplantable organs and transporting them to transplant centers.
Pursuant to section 1138(b)(1) of the Act, for organ procurement costs to be reimbursed under
Medicare, an OPO must be a “qualified organ procurement organization” as described in section
371(b) of the Public Health Service Act and meet several other statutory requirements.

An OPO may be independent or hospital-based. Independent OPOs work closely with donor
hospitals and transplant centers to facilitate organ donation and transplantation. CMS requires
independent OPOs to submit Medicare cost reports annually to determine the amounts payable
under Medicare associated with the procurement of kidneys. (Medicare does not reimburse
independent OPOs for the costs of procuring organs other than kidneys.) The cost report
includes direct costs, overhead costs, and administrative and general costs associated with organ
procurement. Overhead costs include costs for procurement coordinators, professional
education, public education, and organ placement. Administrative and general costs include
such costs as accounting and legal fees; office salaries and supplies; and travel, meetings, and
seminars.

The costs claimed in the cost report must be related to the care of beneficiaries; reasonable,
necessary, and proper; and allowable under Medicare regulations (42 CFR § 413.9(a), (b), and
(c)(3)). In addition, the OPO’s cost information must be accurate and in sufficient detail to
support payments made for services provided (42 CFR § 413.24(a) and (c)). The Medicare
“Provider Reimbursement Manual” (Manual) states that independent OPOs are reimbursed on
the basis of reasonable cost and requires them to use the policies contained in the Manual.

OneLegacy, a federally designated independent OPO serving seven counties in Southern
California, submitted to the fiscal intermediary its fiscal year (FY) 2006 Medicare cost report
covering the period January 1 through December 31, 2006. OneLegacy reported $15,064,120 of
OPO overhead costs and $9,648,274 of administrative and general costs, from which we
judgmentally selected a total of $3,157,740 to review.

OBJECTIVE

Our objective was to determine whether OneLegacy complied with Medicare requirements for
reporting selected OPO overhead costs and administrative and general costs in its FY 2006
Medicare cost report.



                                                 i
SUMMARY OF FINDINGS

OneLegacy did not fully comply with Medicare requirements for reporting selected OPO
overhead costs and administrative and general costs in its FY 2006 Medicare cost report. Of the
$3,157,740 of costs we reviewed, $2,626,280 was allowable. The remaining $531,460
represents $290,968 of unallowable costs and $240,492 of unsupported costs:

      Contrary to Federal regulations, OneLegacy reported $290,968 of costs that were not
       related to patient care or did not comply with other Medicare requirements and therefore
       were not allowable. This amount included costs incurred for the Rose Parade, deferred
       compensation, donations and gifts, lobbying, meals, and entertainment. We estimated
       that Medicare’s share of the unallowable costs related to kidney procurement was
       $162,331.

      Contrary to Federal requirements, OneLegacy reported $240,492 of costs that were
       unsupported. For $26,635 of this amount, no documentation existed to support the
       reported costs. For the remaining $213,857, OneLegacy was unable to provide adequate
       documentation to support the allowability of the reported costs. Based on Federal
       regulations and the Manual, we considered the unsupported costs to be unallowable for
       Medicare reimbursement. We estimated that Medicare’s share of the unsupported costs
       related to kidney procurement was $134,171.

OneLegacy did not have procedures to ensure that all OPO overhead costs and administrative
and general costs reported in its Medicare cost report were allowable, supportable, and in
compliance with Medicare requirements. As a result, OneLegacy overstated its Medicare
reimbursement in the FY 2006 Medicare cost report by an estimated $296,502.

RECOMMENDATIONS

We recommend that OneLegacy:

      submit a revised FY 2006 Medicare cost report to the fiscal intermediary to correct the
       estimated Medicare overstatement of $296,502 and

      develop and implement procedures to ensure that costs reported in future Medicare cost
       reports are allowable, supportable, and in compliance with Medicare requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, OneLegacy agreed with the findings related to deferred
compensation and lobbying costs and did not object to our findings related to entertainment
costs. However, OneLegacy disagreed with the findings related to Rose Parade costs, donations
and gifts, meal costs, and unsupported costs. OneLegacy stated that it was unable to implement
the first recommendation because the fiscal intermediary has never allowed OPOs to reopen
closed reports. OneLegacy agreed with the second recommendation.



                                               ii
OneLegacy’s comments are included as the Appendix. We excluded the attachments to the
comments because they contained personal and proprietary information.

After reviewing OneLegacy’s comments and the additional documentation that OneLegacy
provided, we revised the report to remove the finding related to unsupported legal fees and
deducted the related amount from our first recommendation. Nothing in OneLegacy’s comments
and additional documentation caused us to revise our other findings. The fiscal intermediary
informed us that it could reopen the cost report at the provider’s request.




                                             iii
                                                TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Program..........................................................................................1
              Organ Procurement Organizations.................................................................1
              Medicare Reimbursement of Independent Organ Procurement
               Organizations .............................................................................................1
              Medicare Cost Reports...................................................................................2
              OneLegacy ....................................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective .......................................................................................................3
               Scope .............................................................................................................3
               Methodology .................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          UNALLOWABLE COSTS ......................................................................................4
              Rose Parade....................................................................................................5
              Deferred Compensation ................................................................................6
              Donations and Gifts ......................................................................................7
              Lobbying .......................................................................................................7
              Meals .............................................................................................................7
              Entertainment ................................................................................................7

          UNSUPPORTED COSTS ........................................................................................8

          CAUSE AND EFFECT OF UNALLOWABLE AND UNSUPPORTED
           COSTS REPORTED .............................................................................................9

          RECOMMENDATIONS ..........................................................................................9

          AUDITEE COMMENTS AND OFFICE OF INSPECTOR
           GENERAL RESPONSE.........................................................................................9
               Unallowable Costs .........................................................................................10
               Unsupported Costs .........................................................................................11

APPENDIX

          AUDITEE COMMENTS




                                                                    iv
                                                  INTRODUCTION

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 or older, people under the age of 65 with certain disabilities,
and people of all ages with end-stage renal disease (ESRD), which is permanent kidney failure
requiring dialysis or a kidney transplant. The ESRD Amendments of 1978, P.L. No. 95-292,
added to the Act section 1881, which authorizes Medicare reimbursement for dialysis,
transplantation, and procurement of kidneys. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program.

Organ Procurement Organizations

Organ procurement organizations (OPO) are not-for-profit organizations that are responsible for
procuring and preserving transplantable organs and transporting them to transplant centers.
CMS certifies OPOs to recover or procure organs in CMS-defined exclusive geographic service
areas pursuant to section 371(b)(1)(F) of the Public Health Service Act. Section
1138(a)(1)(A)(iii) of the Act provides that a hospital must notify its designated OPO of potential
organ donors.

Pursuant to section 1138(b)(1) of the Act, for organ procurement costs to be reimbursed under
Medicare, an OPO must be a “qualified organ procurement organization” as described in
section 371(b) of the Public Health Service Act and meet several other statutory requirements.
Qualified OPOs have an agreement with the Secretary of Health and Human Services to be
reimbursed under Title XVIII of the Act for the procurement of kidneys.

An OPO may be independent or hospital-based. Independent OPOs work closely with donor
hospitals and transplant centers to facilitate organ donation and transplantation. Hospital-based
OPOs operate within a hospital’s administrative and financial structure.

Medicare Reimbursement of Independent Organ Procurement Organizations

OPOs do not bill Medicare directly for organ procurement services. For kidneys, the donor
hospital providing the organ bills the OPO its customary charge. 1 The OPO provides the kidney
to the certified transplant center, which pays the OPO and reports the kidney procurement cost in
its Medicare cost report. The OPO submits its own Medicare cost report, in which it reports the
cost of procuring the kidney and the payment it received from the certified transplant center.
Based on the cost report, Medicare Part A makes a retroactive adjustment directly with the
independent OPO to reconcile any overpayment or underpayment resulting from the total
payments that the independent OPO received from transplant centers for kidneys furnished for
transplantation.


1
    Donor hospital charges are not limited to reasonable costs and are not regulated by Medicare.


                                                            1
Medicare Cost Reports

CMS requires independent OPOs to submit Medicare cost reports annually so that it can properly
determine the amounts payable under Medicare associated with kidney procurement. The cost
report, which is divided into multiple worksheets, summarizes the OPO’s financial records and
statistical data to determine the amount claimed for Medicare reimbursement. That amount is
made up of direct costs, overhead costs, and administrative and general costs associated with
organ procurement:

      Direct costs include, for example, costs for operating rooms, anesthesiology, respiratory
       therapy, intensive care units, and donor tissue typing.

      Overhead costs include, for example, costs for procurement coordinators, professional
       education, public education, and organ placement.

      Administrative and general costs include, for example, costs for accounting and legal
       fees; office salaries and supplies; and travel, meetings, and seminars.

Pursuant to the cost finding methodology in the Medicare “Provider Reimbursement Manual”
(Manual), part II, section 3311, independent OPOs allocate overhead costs to the specific types
of organs based on the total number of organs procured. After overhead costs are allocated to
each organ, independent OPOs allocate administrative and general costs to the specific types of
organs based on the total accumulated direct and overhead costs.

The cost report must provide a complete accounting of costs incurred by the OPO in providing
covered services, the total number of Medicare beneficiaries who received those services, and
any other data necessary to enable the fiscal intermediary to determine the reasonable cost of
covered services provided to Medicare beneficiaries (42 CFR § 413.200(e)).

The costs claimed in the cost report must be related to the care of beneficiaries; reasonable,
necessary, and proper; and allowable under Medicare regulations (42 CFR § 413.9(a), (b), and
(c)(3)). In addition, the OPO’s cost information must be accurate and in sufficient detail to
support payments made for services provided (42 CFR § 413.24(a) and (c)). The Manual, part I,
section 2773, states: “[I]ndependent OPOs are reimbursed on the basis of reasonable cost. In
determining the reasonable cost of . . . services and cost reporting requirements, the policies
contained in the Provider Reimbursement Manual (PRM) are to be used.”

OneLegacy

OneLegacy, incorporated in 1977 as a nonprofit corporation, is a federally designated
independent OPO serving people in Los Angeles, Kern, Orange, Riverside, San Bernardino,
Santa Barbara, and Ventura Counties. Its corporate office is located in Los Angeles, California.
OneLegacy submitted its fiscal year (FY) 2006 (January 1 through December 31, 2006)
Medicare cost report to the fiscal intermediary, Riverbend Government Benefits Administrator,




                                                2
which was responsible for reviewing the annual Medicare cost reports submitted by the
50 independent OPOs nationwide. 2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether OneLegacy complied with Medicare requirements for
reporting selected OPO overhead costs and administrative and general costs in its FY 2006
Medicare cost report.

Scope

OneLegacy reported $15,064,120 of OPO overhead costs and $9,648,274 of administrative and
general costs in its FY 2006 Medicare cost report. For our review, we judgmentally selected
$3,157,740 of these costs. We limited our review of OneLegacy’s internal controls to the
procedures that OneLegacy used to accumulate and report OPO overhead costs and
administrative and general costs in its cost report.

We conducted our audit from April 2008 to February 2009 and performed fieldwork at
OneLegacy’s corporate office in Los Angeles, California.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and guidance;

       obtained OneLegacy’s FY 2006 Medicare cost report from Riverbend Government
        Benefits Administrator and reviewed working papers from prior fiscal intermediary
        audits;

       obtained an understanding of OneLegacy’s procedures for reporting OPO overhead costs
        and administrative and general costs in its Medicare cost reports;

       verified that the total costs reported in OneLegacy’s FY 2006 Medicare cost report
        reconciled to its audited financial statements;

       reconciled the OPO overhead costs and administrative and general costs reported in
        OneLegacy’s FY 2006 Medicare cost report to its detailed general ledger;




2
 Effective August 3, 2009, Cahaba Government Benefit Administrators, LLC, is the Medicare administrative
contractor for independent OPOs.


                                                       3
       reconciled the organ statistics reported in the FY 2006 Medicare cost report to
        OneLegacy’s organ donor log, which included the number of organs procured for each
        type of organ and the transplant hospital receiving the organ(s);

       judgmentally selected for testing $3,157,740 of OPO overhead costs and administrative
        and general costs reported in OneLegacy’s FY 2006 detailed general ledger, based on
        whether the costs were material in amount or considered to be high risk;

       reviewed supporting documentation for the judgmentally selected costs and determined
        the allowability of those costs;

       interviewed OneLegacy officials and personnel;

       estimated that the percentage of OPO overhead costs and administrative and general costs
        allocated to kidneys in OneLegacy’s FY 2006 Medicare cost report was 55.79 percent; 3
        and

       estimated the Medicare overpayment related to kidney procurement by applying the
        estimated percentage of 55.79 to the unallowable and unsupported OPO overhead and
        administrative and general costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

OneLegacy did not fully comply with Medicare requirements for reporting selected OPO
overhead costs and administrative and general costs in its FY 2006 Medicare cost report. Of the
$3,157,740 of costs we reviewed, $2,626,280 was allowable. The remaining $531,460
represents $290,968 of unallowable costs and $240,492 of unsupported costs. OneLegacy did
not have procedures to ensure that all OPO overhead costs and administrative and general costs
reported in its Medicare cost report were allowable, supportable, and in compliance with
Medicare requirements. As a result, OneLegacy overstated its Medicare reimbursement in the
FY 2006 Medicare cost report by an estimated $296,502.

UNALLOWABLE COSTS

OneLegacy reported $290,968 of OPO overhead costs and administrative and general costs that
were not related to patient care or did not comply with other Medicare requirements and


3
 We calculated this percentage by averaging the 58.19 percent of overhead costs and 53.39 percent of administrative
and general costs allocated to kidneys in the cost report.


                                                         4
therefore were not allowable. The estimated Medicare overpayment for the unallowable costs
related to kidney procurement was $162,331. The table shows details of the unallowable costs.

                                       Unallowable Costs

                                                             Estimated Medicare
             Cost Category            Unallowable Costs         Overpayment

       Rose Parade                               $153,513                   $85,645
       Deferred Compensation                       64,558                    36,017
       Donations and Gifts                         44,003                    24,549
       Lobbying                                    15,000                     8,368
       Meals                                        9,157                     5,109
       Entertainment                                4,737                     2,643
              Total                              $290,968                 $162,331

Rose Parade

The Manual, part I, section 2102.3, defines costs not related to patient care. It includes,
as an example, “[c]ost of entertainment, including tickets to sporting and other
entertainment events . . . .” Moreover, the Manual, part I, section 2105.8, states: “Costs
incurred by providers for entertainment, including tickets to sporting or other events,
alcoholic beverages, golf outings, ski trips, cruises, professional musicians or other
entertainers, are not allowable.”

Contrary to the Manual, OneLegacy reported as public education costs $153,513 of OPO
overhead costs associated with the 2006 Rose Parade and Rose Bowl that were entertainment and
sporting events. OneLegacy incurred a total of $327,278 of costs related to the 2006 Rose
Parade and Rose Bowl:

      $75,000 for a float framework and design;

      $72,021 for lodging, which included $34,026 for a block of rooms at a hotel in Pasadena,
       California;

      $38,980 for receptions and banquets, which included $7,768 for use of a hotel ballroom
       for a New Year’s Eve celebration;

      $30,057 for media and communications expenses, such as audiovisual equipment,
       photography, and television coverage;

      $26,469 for miscellaneous supplies;

      $16,990 for Rose Parade seats and Rose Bowl game tickets;



                                                 5
      $15,238 for chartered buses, shuttles, and limousines for float judging day and parade
       day;

      $8,600 for musical entertainment, which included $8,000 for a musical performance
       during a New Year’s Eve celebration; and

      $43,923 for other costs, such as food and beverages, public storage, and flowers.

OneLegacy received donations totaling $173,765 for the 2006 Rose Parade and Rose Bowl.
OneLegacy used the donations to offset the total expenditures of $327,278 and reported a net
amount of $153,513 as public education costs in its FY 2006 Medicare cost report. However,
OneLegacy was unable to identify which expenses incurred for the 2006 Rose Parade and Rose
Bowl were offset by the donations received because OneLegacy did not categorize donations
according to the type of covered expense or set aside donations for specific purposes. The
estimated Medicare share of the unallowable costs related to kidney procurement was $85,645.

Deferred Compensation

Federal regulations (42 CFR § 413.100(c)(2)(vii)(B)) provide that liabilities related to deferred
compensation plans “must be liquidated within 1 year after the end of the cost reporting period in
which the liability is incurred. An extension, not to exceed 3 years beyond the end of the cost
reporting year in which the liability was incurred, may be granted by the intermediary for good
cause if the provider, within the 1-year time limit, furnishes to the intermediary sufficient written
justification for non-payment of the liability.”

The Manual, part I, section 2140.4, states: “A provider must make payment of its liability to the
fund established for the deferred compensation plan in accordance with the provisions covering
liquidation of liabilities established in §2305. This section requires full liquidation of the
liability within 1 year after the end of the cost reporting period in which the liability is
incurred.”

OneLegacy reported $64,558 of unallowable OPO overhead costs and administrative and general
costs related to its deferred-compensation pension plan. OneLegacy incurred deferred
compensation costs of $1,253,097, which represented employer contributions for the pension
plan for the year ending December 31, 2006. However, contrary to Federal regulations and the
Manual, OneLegacy did not liquidate the entire amount within 1 year of the end of the FY 2006
cost reporting period. OneLegacy transferred only $1,177,925 to its third-party pension
administrator. The remaining $75,172 was not liquidated as required by Medicare regulations, of
which $64,558 related to overhead costs and administrative and general costs. As of February
2009, OneLegacy had not liquidated the balance, nor had it requested a good-cause extension
from the intermediary. The estimated Medicare share of the unallowable costs related to kidney
procurement was $36,017.




                                                 6
Donations and Gifts

The Manual, part I, section 2102.3, states that the costs of gifts or donations are not related to
patient care and therefore not allowable in computing reimbursable costs. Section 2105.7 states:
“Costs incurred by providers for gifts or donations to charitable, civic, educational, medical or
political entities are not allowable.”

Contrary to the Manual, OneLegacy reported $44,003 of OPO overhead costs and administration
and general costs related to donations and gifts. This amount consisted of $41,250 incurred for
donations made to charitable and medical entities and $2,753 incurred for gifts to non-
employees. For example, OneLegacy reported $6,000 for sponsorship of a golf tournament that
benefited a health foundation. OneLegacy also reported $7,000 for its sponsorship of a liver
foundation’s recognition dinner honoring OneLegacy’s chief executive officer. The estimated
Medicare share of the unallowable costs related to kidney procurement was $24,549.

Lobbying

The Manual, part I, section 2139, states: “Provider political and lobbying activities are not
related to the care of patients. Therefore, costs incurred for such activities are unallowable.”
Further, section 2139.2, paragraph A, defines lobbying as “any activity whereby a directed effort
is made to influence legislation.” The Manual further states: “The policy applies whether the
lobbying involves Medicare activities or activities unrelated to Medicare and whether the
provider lobbies with its own employees or engages others, directly or indirectly, to lobby on its
behalf.”

Contrary to the Manual, OneLegacy reported $15,000 of administrative and general costs related
to lobbying. OneLegacy removed $60,000 of the $75,000 incurred for lobbying related to legal
services provided by a law firm; however, it failed to remove the remaining $15,000. The
estimated Medicare share of the unallowable costs related to kidney procurement was $8,368.

Meals

The Manual, part I, section 2105.2, states: “The cost of meals for other than provider personnel,
whether served in a cafeteria, coffee shop, canteen, etc., is unallowable under the program
because it is not related to patient care. (See §2102.3) Providers must maintain adequate cost
data in order to determine the cost of these meals.”

Contrary to the Manual, OneLegacy reported $9,157 of OPO overhead costs and administration
and general costs for meals provided to donor hospitals’ staff and others who were not
OneLegacy employees without documenting valid business purposes for the expenditures. The
estimated Medicare share of the unallowable costs related to kidney procurement was $5,109.

Entertainment

The Manual, part I, section 2102.3, states that the costs of entertainment and alcoholic beverages
are costs not related to patient care and therefore are not allowable in computing reimbursable



                                                7
costs. Further, section 2102.3 defines unallowable costs as “[c]ost of alcoholic beverages
furnished to employees or to others regardless of how or where furnished, such as cost of
alcoholic beverages furnished at a provider picnic or furnished as a fringe benefit . . . .”

The Manual, part I, section 2105.8, states: “Costs incurred by providers for entertainment,
including tickets to sporting or other events, alcoholic beverages, golf outings, ski trips, cruises,
professional musicians or other entertainers, are not allowable.”

Contrary to the Manual, OneLegacy reported $4,737 of OPO overhead costs and administration
and general costs related to entertainment and alcohol. This amount consisted of $4,347 incurred
for parties held for individuals who were not OneLegacy employees and $390 incurred for
alcoholic beverages by OneLegacy personnel. The estimated Medicare share of the unallowable
costs related to kidney procurement was $2,643.

UNSUPPORTED COSTS

The Manual, part I, section 2300, states: “Providers receiving payment on the basis of
reimbursable cost must provide adequate cost data based on financial and statistical records
which can be verified by qualified auditors.” Further, section 2304 of the Manual states:

       Cost information as developed by the provider must be current, accurate, and in
       sufficient detail to support payments made for services rendered to beneficiaries.
       This includes all ledgers, books, records and original evidences of cost (purchase
       requisitions, purchase orders, vouchers, requisitions for materials, inventories,
       labor time cards, payrolls, bases for apportioning costs, etc.), which pertain to the
       determination of reasonable cost, capable of being audited.

Contrary to Federal regulations (42 CFR § 413.24) and the Manual, OneLegacy reported
$240,492 of OPO overhead costs and administration and general costs that were unsupported.
For $26,635 of this amount, no documentation existed to support the reported costs. For the
remaining $213,857, OneLegacy was unable to provide adequate documentation to support the
allowability of the reported costs.
Of the $213,857 of inadequately supported costs, OneLegacy provided only credit card
statements for $149,249 and did not provide adequate supporting documentation for $64,608
incurred for miscellaneous expenditures:
      OneLegacy provided only credit card statements for $149,249. OneLegacy maintains
       corporate credit cards for its executives. Some of those credit cards’ charges were
       processed for payment without supporting documentation that provided justification for
       the costs or identification of business purposes. These charges included airfares, hotels,
       meals at restaurants, and miscellaneous charges. For example, OneLegacy was unable to
       provide an invoice or itemized receipts to support $8,446 listed on its September
       2006 credit card statement for costs incurred at a hotel in New Orleans, Louisiana.
      For the remaining $64,608, OneLegacy did not provide adequate supporting
       documentation, such as itemized bills indicating the types of expenditures incurred or the
       purpose of the expenditures. For example, OneLegacy was unable to adequately support


                                                  8
       $32,102 of costs reported for a 3-day board of directors’ retreat held at a resort and spa in
       Laguna Beach, California. OneLegacy did not provide sufficient documentation of the
       purpose of the retreat, the need for overnight lodging, or the need for holding the meeting
       at a separate facility, or demonstrate that the costs were reasonable, necessary, and
       proper. The only documentation provided that validated a business purpose was the
       minutes for the board of directors meeting on the third day of the retreat.

Based on Federal regulations and the Manual, we considered the unsupported costs to be
unallowable for Medicare reimbursement. The estimated Medicare share of the unsupported
costs related to kidney procurement was $134,171.

CAUSE AND EFFECT OF UNALLOWABLE AND UNSUPPORTED COSTS
REPORTED

OneLegacy reported unallowable and unsupported costs because it did not have procedures to
ensure that all OPO overhead costs and administrative and general costs were allowable,
supportable, and in compliance with Medicare requirements. As a result, OneLegacy overstated
its Medicare reimbursement in the FY 2006 Medicare cost report by an estimated $296,502.

RECOMMENDATIONS

We recommend that OneLegacy:

      submit a revised FY 2006 Medicare cost report to the fiscal intermediary to correct the
       estimated Medicare overstatement of $296,502 and

      develop and implement procedures to ensure that costs reported in future Medicare cost
       reports are allowable, supportable, and in compliance with Medicare requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, OneLegacy agreed with the findings related to deferred
compensation and lobbying costs and did not object to our findings related to entertainment
costs. However, OneLegacy disagreed with the findings related to Rose Parade costs, donations
and gifts, meal costs, and unsupported costs. OneLegacy stated that it was unable to implement
the first recommendation because the fiscal intermediary has never allowed OPOs to reopen
closed reports. OneLegacy agreed with the second recommendation.

OneLegacy’s comments are included as the Appendix. We excluded the attachments to the
comments because they contained personal and proprietary information.

After reviewing OneLegacy’s comments and the additional documentation that OneLegacy
provided, we revised the report to remove the finding related to unsupported legal fees and
deducted the related amount from our first recommendation. Nothing in OneLegacy’s comments
and additional documentation caused us to revise our other findings. The fiscal intermediary
informed us that it could reopen the cost report at the provider’s request.


                                                 9
Unallowable Costs

Auditee Comments

OneLegacy disagreed that costs related to the Rose Parade, donations and gifts, and meals were
unallowable:

       OneLegacy stated that the Rose Parade is a partnered investment in public education to
        increase organ donations and that Medicare has long considered targeted “patient
        education” designed to improve access to care and clinical outcomes to be reimbursable.
        OneLegacy also stated that because OPOs do not treat patients, some latitude has always
        been applied to OPO cost reports. With its comments, OneLegacy provided the 2007
        budget expenses paid in FY 2006 for the January 1, 2007, Rose Parade float.

       OneLegacy stated that it made donations to purchase opportunities to make presentations
        at health care events on the value of organ donations, with the intention of increasing
        public and patient support for organ donation.

       OneLegacy stated that because meals were provided to improve patient and donor care by
        hospital staff and were essential to ensuring organ donations, these costs should be
        allowable.

Office of Inspector General Response

Nothing in OneLegacy’s comments and additional information caused us to revise our findings.

   Costs incurred in connection with the Rose Parade and Rose Bowl are entertainment costs
    that are not allowable under the specific cost reimbursement principles in the Manual, part I,
    section 2105.8. We understand that OneLegacy considers the Rose Parade float to be an
    investment in public education; however, the Manual, part I, section 2136.1, provides that
    advertising costs, including costs associated with public relations, are allowable only if they
    are directly or indirectly related to patient care and are reasonable. The Manual, part I,
    section 2102.1, states: “Implicit in the intention that actual costs be paid to the extent they
    are reasonable is the expectation that the provider seeks to minimize its costs and that its
    actual costs do not exceed what a prudent and cost conscious buyer pays for a given item or
    service.” Costs associated with the Rose Parade float and related activities are not allowable
    public education costs because they are not directly or indirectly related to patient care and
    exceed what a cost-conscious buyer would pay for public education. Moreover, the
    documentation that OneLegacy provided to support expenses that were offset by donations
    was for the 2007, not the 2006, Rose Parade.

   Because donations and gifts are not related to patient care, they are not allowable under
    sections 2102.3 and 2105.7 of the Manual. In addition, during our audit, a OneLegacy
    official informed us that donations were not mandatory for OneLegacy staff to attend and
    speak at various venues.



                                                10
      Meals provided to individuals who were not OneLegacy employees are not allowable under
       sections 2102.3 and 2105.2 of the Manual. In addition, the fiscal intermediary’s instructions
       to OPOs emphasized that “the costs of meals for anyone other than provider personnel are
       not allowable.”

Unsupported Costs

Auditee Comments

OneLegacy disagreed that the following costs were inadequately supported:

          For $149,249 of costs supported only by credit card statements, OneLegacy commented
           that the statements included information equivalent to the details provided on receipts and
           had the information necessary to determine allowable expenses. OneLegacy attached to
           its comments a one-page example of a recent credit card statement.

          For $64,608 of inadequately supported costs, OneLegacy provided itemized receipts for
           $32,102 related to the board of director’s retreat. OneLegacy acknowledged that $1,119
           was for unallowable alcoholic drinks. OneLegacy stated that it was unable to address the
           remaining $32,506 4 because the draft report did not include a description of the
           disallowed costs.

OneLegacy did not comment on the $26,635 for which no documentation existed to support the
reported costs.

Office of Inspector General Response

The credit card statement example provided by OneLegacy was for expenses incurred in May
and June 2009. The scope of our audit related to expenses incurred during FY 2006. The
majority of credit card statements provided during our review did not include any handwritten
attestations of the work-related purpose of the expenses. In addition, the handwritten attestations
did not provide an itemization of the expenses that would be required to determine the
allowability of the costs incurred pursuant to Federal regulations and the Manual.

OneLegacy’s itemized receipts for the board of directors’ retreat did not describe the purpose of
the retreat and did not demonstrate that these costs were reasonable, necessary, and proper and
related to patient care as required by Federal regulations and the Manual. Although the
remaining $32,506 of inadequately supported costs was not described in the draft report, all of
these costs were identified in a detailed list provided to OneLegacy during our audit.




4
    OneLegacy incorrectly cited $32,306 in its comments instead of $32,506.


                                                          11
APPENDIX
                                                                                                                            Page 1 of 4
                                              APPENDIX: AUDITEE COMMENTS




                                                                                                               onelegacy
                                                                                                               a donate life organization
                              July 7,2009

                              Re: Report Number: A-090-08-00033

                              Lori A. Ahlstrand
                              Regional Inspector General
Board of Directors               For Audit Services
~~~fr:;'~nendez, MD           U.S. Department of Health and Human Services
~~~~~aB~I~:e~OW               Office of Inspector General 

~i~ll~a~ ~:~~:", MD, PhD      Region IX 

~.a~~~~aesn~~~~~~al, MD 90-i       h
                                     Street, Suite 3-650 

~~c~aat~; ¢o:!~rres           San Francisco, CA 94103 

Los Angeles
    So uth Fig ueroa Street   Dear Ms. Ahlstrand:
Los Angeles, CA 90012 


T (2131 229-5600 

F (213) 229-5601 
            Thank you for providing a draft report of your audit of OneLegacy for Medicare Cost Report
Bakersfield 

                              year 2006. We have reviewed the report and would like to respond to each of the items
1100 Mohawk Street 

Suite 150 

                              identified.
Bakersfield, CA 93309 

T (661) 635-0434 

F (66 1) 635-0279 
           The report identifies $290,968 in Unallowable Costs and $315,076 of Unsupported Costs and
Long Beach 

                              an Estimated Medicare Overpayment of $352,972. Seven individual categories of expense are
5000 East Spring Street 

Suite 700 

                              identified as making up these amounts and we will respond to each of these below.
Long Beach, CA 90815 

T (562) 608-4100 

F (562) 608-4101 
            Unallowable Costs
Redlands 

                              Rose Parade: $153,513 Unallowable and $85,645 Overpayment
170 1 Ora nge Tre e Lane 

Redl ands, CA 92374 

                              Dispute DIG Determination
T (909) 801-3701 
            First, the Donate Life Rose Parade float is a partnered investment in public education to
F (909) 801-3707 

                              increase donation with 60 partner OPOs, transplant centers, and corporations.              All
Santa Ana 
                   contributions are pooled to cover the entire cost of development, construction, coordination,
500 W. Santa Ana Blvd. 

Suite 200 
                   and operation of the float and ancillary media to deliver the message. All riders and their
Sa nta Ana, CA 92701 

                              supporters' travel and lodging costs are paid for by their sponsors or themselves and are not
T (714) 245-6360 

F (714) 972-0768 
            subsidized by OneLegacy. Partner contribution details and expense details are available for
Sherman Dales 

                              your review at any time, and attached is an itemized summary of the revenues and expenses
14724 Ventura Blvd. 

Suite 300 

                              of the Parade float.
Sherman Oaks, CA 91403 

T (818) 464- 1330 

F (818) 464-1370 
            Second, everything about the float and its support activities is done to generate media stories
                              designed to educate the public and increase organ donation consent rates; which is evidenced
                              by the 300+ media stories on local and national TV, radio and newspapers which is also
                              documented and available for your review (see attached chart illustrating media stories
                              generated and spreadsheet of revenues and expenses, Attachment 1). At an estimated value
                              of $1,000 for print media advertising and $2,000 for radio and $10,000 for television, the
                              economic value of these media placements for the 2006 fiscal year was $511,000.




                                     (800 ) 338-6112           (800 ) 786-4077 

                                                                                           Page 2 of4




Third, the effectiveness of the parade float as a vehicle to make the public more comfortable
with donation and inspire them to donate is found in the increase in donation rates and donor
registration rates in communities that have been active participants in the float in the months
of January - March each year.

Fourth and finally, Medicare has long considered targeted "patient education" designed to
improve access to care and clinical outcomes to be reimbursable. Since OPOs do not ever
treat patients, it is clear that some latitude has always been applied to OPO cost reports and
that has been the recognition that we serve donors instead of patients. The Rose Parade float
has been demonstrated to be the most effective means of informing families and individuals
of the benefits of donation and increasing donation and registration rates. As such, these
costs are consistent with allowable "patient education" expenses made by OPOs, such as
brochures, videos, and public presentations that are routinely allowed by the fiscal
intermediary and they should be deemed to be allowable in this audit.



Deferred Compensation: $64,558 Unallowable and $36,017 Overpayment
Agree with DIG Determination
This finding is correct and resulted from a redetermination of the number of eligible
employees that was not adjudicated prior to cost report closure.

Donations and Gifts: $44.033 Unallowable and $24,549 Overpayment
Dispute DIG Determination
Each of these "donations" was made to purchase the opportunity to speak and present
written and video materials at events that brought together healthcare leaders in our
community in order to stimulate their understanding of the need for and value of donation
and transplant. They are classified on our books as "donations and gifts" because that is the
nature of the fundraising of these organizations and those donors that are for-profit,
taxpaying organizations rely on this classification in order to deduct these expenses · as
charitable donations. As a not-for-profit, we do not need to nor do we intend our donations
to be a tax deduction. Our contribution is given with the clear intention of purchasing a venue
for sharing our message and increasing public and "patient" support for donation and as such
should be an allowable cost.

lobbying: $15,000 Unallowable and $8,368 Overpayment
Agree with DIG Determination
These funds were inadvertently reported as allowable, and should have been reported as non­
allowable as the majority of the lobbying expenses were handled.

Meals: $9,157 Unallowable and $5,109 Overpayment
Dispute DIG Determination
These meal expenses were made to facilitate the attendance of hospital staff during meal
periods at meetings designed to educate on policy and practice changes in donQr
                                                                                              Page 3 of4




identification, management, and organ recovery and hospital policy development to facilitate
organ donation. As such, this was solely provided to improve IIpatient/donor care" by hospital
staff and essential to ensuring donation and transplant, and thereby should be deemed to be
an allowable expense.

Entertainment: $4,737 Unallowable and $2,643 Overpayment
Agree with DIG Determination
Given the deminimus amount of these expenses and the fact that alcohol was identified ·as
making up a portion of the expense ($390) we will not object to this finding.



Unsupported Costs: $315,076 Unsupported and $190,641 Overpayment
Credit Card Statements: $149,249 Unsupported
Dispute DIG Determination
Credit Card Statements include Date, Payee, Amount, and a hand written attestation as to the
work-related purpose of the expense (sample in Attachment 2). This is equivalent to the
detail provided on receipts, most of which were printed on thermal paper and do not remain
legible 'vvithin ·months of the expense. Thus, the documentation of expenses is substantive,
and meets the necessary information needs to determine allowable expenses.

Legal Fees: $101,219
Dispute DIG Determination
These fees were for defense against and settlement of a former employee claim of wrongful
termination.OneLegacy was not found responsible and settlement expense was made in
order to minimize continued legal expense of a trial. Such fees are entirely within the normal
legal expenses related to employment, and in this case the expenses were to defend against
an unproven allegation in which OneLegacy agreed to a mediated settlement without
admission of any wrong-doing in order to minimize defense costs. This is clarified in the
attached documentation (Attachment 3) and these expenses should be deemed to be
allowable.

Other Expenses: $64,408
Dispute DIG Determination
The only item identified in the DIG report is $32,102 of expenses for the Board of Directors
Annual Retreat and Meeting. The report claims that an itemization does not exist, but in fact
one was available for all expenses associated with the accommodations and dining and is
attached herein. Additional expenses for travel for our international speaker were provided to
the auditors. As illustrated in the attached materials (Attachment 4), the individuals in
attendance, food and lodging costs, meeting room expenses, and audio-visual expenses are
clearly itemized. As such, these costs should not be deemed non-allowable for lack of
itemization as is noted in the DIG report. It would be reasonable for the DIG to note that the
expense itemization lists $1,118.78 for alcoholic drinks and this amount should not be
deemed allowable. As for the remaining $32,306 identified in the report; no descrip'i,~!r:'l of the
                                                                                             Page 4 of4




nature of this disallowance is included in the report so we have no ability to address this claim
and must assume these costs to be allowable.

Finally, the report recommends that OneLegacy submit a revised cost report to the
intermediary to correct any overpayments by the Medicare program. Unfortunately, the fiscal
intermediary has never allowed OPOs to re-open closed cost reports, so we are unable to
follow this recommendation at this time. We would appreciate your guidance in this regard.
Additionally, the report recommends that we implement procedures to ensure costs are
allowable, supportable, and in compliance with Medicare requirements and we have
substantially increased record-keeping requirements to remove any possible ambiguity as to
Medicare Allowable status of expenses. We will refine these requirements once the items in
dispute are resolved to the satisfaction of our OneLegacy, the OIG, and our fiscal
intermediary.

Thank you very much for this opportunity to comment on your findings.

Sincerely




Thomas Mone, CEO
OneLegacy
